Before the Committee on Transportation and Infrastructure
Subcommittee on Aviation
United States House of Representatives

For Release on Delivery
Expected at
10:00 a.m. EDT
                          The Conversion of Flight
Wednesday
October 10, 2007
                          Service Stations From
                          FAA to Contract
CC-2007-102



                          Operations

                          Statement of
                          The Honorable Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
Chairman Costello, Ranking Member Petri, and Members of the Subcommittee:

We appreciate the opportunity to testify today regarding the conversion of the Federal
Aviation Administration’s (FAA) flight service stations to contract operations.
Specifically, we would like to discuss the following three issues regarding the
transition of flight services from FAA to contract operations:

 1. The management controls established by FAA over the initial transition;

 2. Problems that the contractor (Lockheed Martin) encountered during the
    consolidation phase of the transition, which ultimately led to service disruptions
    to users; and

 3. Key issues that Lockheed Martin and FAA need to address going forward.

First, I would like to briefly discuss the background of this transition. Flight service
stations provide general aviation pilots with aeronautical information such as pre- and
in-flight weather briefings, flight planning assistance, and aeronautical notices (e.g.,
runway closures or temporary flight restrictions). In addition, while employees at
flight service stations do not control air traffic, they can provide in-flight support to
pilots who are lost or in need of assistance.

During the month of August, flight services received an average of between
85,000 and 90,500 calls per week. Flight services are provided at no charge to users
and are intended to help promote safe flight operations. However, most of the
services provided are optional for pilots’ use.

Pilots may also obtain flight information using online services such as Direct User
Access Terminal Service (known as DUATS), an automatic weather briefing and
flight plan processing service that allows pilots to obtain weather data and file flight
plans via personal computer.

On February 1, 2005, FAA awarded a 5-year fixed-price, incentive-fee contract (with
5 additional option years) to Lockheed Martin to operate the Agency’s flight service
stations in the continental United States, Puerto Rico, and Hawaii.                   On
October 4, 2005, Lockheed Martin took over operations at the 58 flight service
stations, and, on that date, approximately 1,900 specialists and additional support staff
became employees of Lockheed Martin. The 2-year transition period ended last
week. However, to protect those employees that were close to retirement, Congress
passed legislation that allowed any flight service station employee who was within
2 years of retirement to remain employed with FAA, thereby retaining their Federal
benefits and pension.

The subject of outsourcing Government operations is an important policy area for
Congress and the Administration that has generated significant attention. However, it

                                                                                       1
is important to recognize that FAA’s flight service stations needed to be modernized.
Many stakeholders, including FAA and our office, recommended consolidating
FAA’s 58 flight service stations into fewer locations to reduce costs and improve
operational efficiency, regardless of whether those services continued to be provided
by FAA or a contractor. 1

FAA anticipates that by contracting out flight service facilities, it will save
$1.7 billion over the 10-year life of the agreement. These savings are based on the
difference between the Agency’s projected costs of operating the flight service
stations versus the cost of the Lockheed Martin contract. The savings are expected to
be achieved through a series of changes to reorganize flight service stations operations
and modernize facilities and equipment. The planned changes include the following:

    • Consolidating the 58 FAA-operated flight service stations into 3 new hub facilities
      and 15 refurbished stand-alone facilities.

    • Deploying FS-21, Lockheed Martin’s new flight services operating system. The
      new system connects the facilities through a single, nationwide operating system
      that will allow flight service specialists to file flight plans, access aeronautical and
      weather information, and provide other information to pilots for any airport in the
      country.

    • Reducing flight service specialist staffing levels from approximately
      1,900 specialists to about 1,000 specialists as a result of the technological and
      operational changes noted previously.

The consolidation is nearly complete at this point, and FS-21 is operational.
Lockheed Martin has opened the 3 hub facilities, refurbished and reopened the
15 continuing sites, and transitioned 40 closing facilities into the 3 hubs. Two sites
remain to be consolidated: the Islip flight service station in November (into the
Washington hub) and the San Juan flight service station in December (into the Miami
facility). Lockheed Martin has also completed realignment of the flight service areas
from the original 58 areas into the 15 consolidated areas, as shown in figure 1 below.




1
    OIG Report Number AV-2002-064, “Automated Flight Service Stations: Significant Benefits Could Be Realized by
    Consolidating AFSS Sites in Conjunction With Deployment of OASIS,” December 7, 2001. OIG reports and testimonies
    are available on our website: www.oig.dot.gov.


                                                                                                                  2
            Figure 1. Fifteen Realigned Flight Service Areas




The transition, however, was not an easy one. In hindsight, of course, it is always
easier to see what should have been done differently. Nevertheless, even at the time,
it was clearly an ambitious undertaking to deploy a new operating system and “de-
bug” it during live operations while consolidating 58 locations down to 18. At the
same time, an entire workforce had to be acclimated to a new system (most at new
locations)—all within a 6-month period. During the transition, there was a significant
number of problems with providing services to users, including long wait times,
dropped phone calls, lost flight plans, and poor briefings. We found that many of
those problems have since been resolved.

The focus now needs to be on ensuring that quality services are provided to users
efficiently and cost effectively. Key issues for Lockheed Martin and FAA going
forward include the following:

 • Meeting acceptable levels of performance over the next several months (the
   contractor is currently not meeting 13 of the 21 performance measures).

 • Achieving anticipated savings (this is particularly important since the bulk of the
   savings are forecast in the out-years of the contract).



                                                                                    3
    • Maintaining adequate staffing levels and sufficient training of flight service
      specialists to meet users’ needs (Lockheed Martin expected to have
      1,000 specialists on board at the end of the transition but had only 842 specialists
      as of September 1, 2007).

An important point, Mr. Chairman, is that as a result of the outsourcing, FAA’s
responsibility over flight service stations has changed from a provider of services to
an oversight role of contracted operations. Although the Agency has outsourced the
day-to-day operations of its flight services, it is still ultimately responsible for the
services that these facilities provide to general aviation users of the National Airspace
System. Therefore, FAA needs effective controls in place over its contractor to
ensure that the quality of services is maintained and that the estimated savings are
achieved.

In May, we issued an interim report on this outsourcing effort. 2 Our testimony today
is based on that audit and our ongoing work to monitor the progress and problems of
this transition. I would now like to discuss the three issues that we see as key to the
outsourcing effort.

FAA Established Effective Management Controls Over the Initial
Transition to Contract Operations by Implementing a Well-
Structured Contract and Internal Controls
We found that FAA established a series of effective management controls over the
initial transition from FAA to contract operations. For example, FAA used a contract
mechanism (fixed-price plus incentive-fee) that allows for careful monitoring of the
contractor’s performance and a series of internal controls for enforcing it. Our May
2007 report examined those controls. Overall, we found that FAA had implemented
effective internal controls to monitor the operational and financial aspects of
contracted flight service operations. At the onset of the contract, FAA:

    • realigned its existing Headquarters Flight Services Office to oversee the
      transitional, operational, and financial aspects of the flight services contract. This
      office includes a quality assurance branch that measures Lockheed Martin’s
      performance against contractual performance measures and an operations branch
      that oversees the contractual operations of flight service stations.

    • maintained an operational evaluation group under the Air Traffic Organization’s
      Vice President for Safety that conducts reviews of flight service stations to ensure
      that FAA regulations and procedures are followed by contractor personnel. The
      group has also adjusted its monitoring procedures to reflect changes in flight
      services provided by Lockheed Martin.
2
    OIG Report Number AV-2007-048, “Controls Over the Federal Aviation Administration’s Conversion of Flight Service
    Stations to Contract Operations,” May 18, 2007.


                                                                                                                  4
 • convened an Executive Board of Performance and Cost Review, which monitors
   the cost and operation of the outsourced flight service stations. The Board; which
   is made up of officials from FAA’s Flight Services Program Office, managers
   from various FAA lines of business, and Lockheed Martin; serves as the primary
   managerial oversight board and reviews contractually mandated financial and
   operational reports for outsourced flight service activities.

 • included 21 performance measures in the contract, which range from operational
   efficiency to customer service, against which Lockheed Martin is evaluated.
   Lockheed Martin can earn up to $10 million annually in bonuses for meeting an
   acceptable performance level (APL) associated with each measure but can also be
   financially penalized for not meeting an APL. The 21 performance measures and
   the associated APLs are included in the exhibit to this statement.

In our opinion, these controls are an important mechanism for future management of
the contract. Each control provides FAA with the tools needed to administer the
contract, evaluate contractor performance, and determine if cost savings have been
and will be achieved.

We also found that FAA had used these controls to monitor and assess contractor
performance and, in some cases, has financially penalized the contractor. For
example, during fiscal year (FY) 2006, Lockheed Martin earned $6 million for
meeting the APLs for 15 of the performance measures. However, the contractor did
not meet five of the performance measures, either during a quarter or for the year. As
a result, the contractor incurred $8.9 million in financial penalties and submitted
corrective action plans to resolve other performance measures that were cited as
deficient.

In addition, FAA’s Air Traffic Organization Office of Finance completed an internal
review of the flight services transition in May 2006 and recommended, among other
things, that FAA conduct an assessment of the cost baseline used, update projected
cost savings, and ensure that the quality assurance branch has sufficient resources to
adequately validate contract performance levels.         FAA is addressing those
recommendations.

Lockheed Martin Experienced Delays in Developing FS-21, Which
Led to an Aggressive Consolidation Schedule and Ultimately
Service Disruptions for Users
While the Agency implemented effective management controls over the initial
transition, Lockheed Martin experienced significant problems during the
consolidation phase of the outsourcing effort. Lockheed Martin experienced a 10-
month delay in developing FS-21, which led to a very aggressive consolidation
schedule during the busy summer air travel season.


                                                                                    5
In addition, because of the delay in development, Lockheed Martin began installing
and using the system in live operations with identified deficiencies still uncorrected.
As a result, there was a significant number of problems in providing services to users,
including long wait times, dropped phone calls, lost flight plans, and poor briefings.
The apex of these problems occurred in May.

Many of those problems have now been resolved. For any future, similar
undertakings, however, there are several lessons learned that can be gleaned from this
experience. These include (1) ensuring that new systems are fully developed before
becoming operational so that they provide the services contracted for with no “de-
bugging” during live operations; (2) ensuring that sufficient attention is paid to human
factor issues, such as acclimating a workforce to new systems and new circumstances;
and (3) taking swift and decisive interventions when outcomes (even intermediate
ones) fail to meet requirements.

Lockheed Martin Experienced Delays in Developing FS-21 and Significant
Problems During Deployment
One of the key factors for a successful conversion was having FS-21 operational
before the start of the consolidation. FS-21 was critical to consolidating locations
because it allows specialists to access weather information, Notices to Airmen
(NOTAM), and other locality-specific information for any location in the Nation.
This capability was limited with the prior software and was primarily site-specific.
Without the ability to access nationwide information from the hubs, Lockheed Martin
would not be able to relocate specialists to the new facilities or re-align geographic
responsibilities.

After a 10-month delay in development, Lockheed Martin began using FS-21 in
February 2007 at its Washington (Ashburn, Virginia) hub facility. Since then, it has
been installed at the other hub facilities and at the 15 continuing sites. However,
while FAA tested the system and determined that it met the requirements of the
Agency’s flight service order, the system went operational—even though Lockheed
Martin had not fully completed development and testing of the system.

Since becoming operational, the system has had both hardware and software issues,
some of which are still being resolved. These issues include flight plans being lost,
temporary flight restrictions appearing that did not exist, pilots being unable to file or
brief for heliports, and flight plans appearing as still open even after they were closed.

These problems were compounded by the fact that a large portion of the consolidation
occurred during the spring and summer, when general aviation activity is at its highest
and when service disruptions can have a significant impact. Lockheed Martin has
been regularly performing software drops to fix the problems, with the most recent



                                                                                        6
one occurring on September 10, 2007, and this has helped to resolve most of the
problems.

The system has also suffered several outages which, in some cases, significantly
affected operations. For example, a complete FS-21 system outage occurred on
May 8, 2007, and lasted for 1 hour and 20 minutes. While Lockheed Martin quickly
resolved the problem, the outage resulted in specialists losing every call in progress,
every call on hold, and flight plans that were not already issued to FAA. It also
caused a backlog of calls for the entire day.

While most of the initial problems with FS-21 have been resolved, the system still
does not provide all of the services required for flight services. To meet these
requirements, Lockheed Martin is utilizing a series of workarounds until FS-21 can
provide the services. For example, Lockheed Martin recently implemented its
NOTAM functions for FS-21 but is using FAA’s legacy NOTAM system as a back-
up. In addition to the hardware and software issues, specialists were being trained on
FS-21 during the consolidation. This resulted in fewer specialists being available to
field calls. Many of the specialists that were available were using FS-21, with which
they were still relatively unfamiliar.

For any future, similar undertakings, a key issue will be to ensure that problems with
a new system are addressed during testing and before deployment to a live,
operational environment. In addition, sufficient attention needs to be paid to human
factors issues, such as training the workforce and acclimating it to new systems and
new circumstances.

Delays in FS-21 Development Led to a Very Aggressive Consolidation
Schedule
With delays occurring in the development of FS-21, FAA and Lockheed Martin
embarked on an aggressive consolidation schedule. Starting last February, the plan
was to close and consolidate the existing 58 sites into the 3 hub and 16 3 refurbished
locations; finish development, testing, and installation of FS-21 at the hubs and
continuing sites; and install digital communication lines to support the FS-21 system.
All of this was to occur within a 6-month timeframe, which was originally scheduled
to be completed by July 2007.

However, due to the large scope of the consolidation and issues associated with FS-
21, the consolidation schedule was delayed several times, with some facilities delayed
4 months or longer from their original schedule. Though there were delays, we note
that the facilities consolidation was still completed before the end of the 2-year
transition period, which ended last week.

3
    Lockheed Martin’s original plan was to have 16 refurbished facilities, but it revised that number down to 15 facilities after
    deciding to consolidate the San Juan facility into the Miami facility.


                                                                                                                               7
The contractor’s decision to delay the consolidation of some facilities was based in
part on reducing risks associated with transition. According to Lockheed Martin
officials, the delay gave the contractor time to evaluate the status of the consolidation,
make adjustments, and resolve problems that arose during the consolidation.
Additionally, by keeping the existing facilities open longer, Lockheed Martin kept the
staffing levels up, and seasonal workers were brought in for the busy periods. For
example, two facilities located in southern Florida, scheduled to close at the same
time, stayed open longer because Lockheed Martin did not want to have two high-
volume facilities closing at the same time.

As a Result of Problems During the Consolidation, Services Were Disrupted
When Demand for Flight Services Was at the Highest Level
Since the facility consolidations began in February, there have been numerous
complaints from users regarding operational performance issues of flight service
stations. According to FAA, user complaints received by Lockheed Martin reached a
high of 326 during the week ending May 13, 2007. However, the number of
complaints has since dropped. During the 7-day period ending September 12, 2007,
FAA received 152 complaints on its customer service line. The three most common
complaints were lost flight plans, communication issues, and quality of services.

Lost Flight Plans: Pilots who fly under Instrument Flight Rules are required to file a
flight plan before taking off. In addition, many Visual Flight Rule pilots also file
flight plans in case of an emergency or an accident. We found that since FS-21 was
implemented, numerous flight plans have been lost, requiring pilots to file the plans
again while they are either on the ground or in mid-air. According to FAA and
Lockheed Martin officials, there were two reasons for flight plans being lost during
the early stages of the transition.

 • First, when flight plans were sent to the HOST computer at en route centers, the
   plans included an identifier that was used during FS-21 testing. As a result, the
   en route HOST computer would not process the plans because it did not recognize
   the identifier. To Lockheed Martin’s credit, this problem was identified on
   April 26 and resolved 1 week later.

 • Second, although closing flight service facilities physically move to one of the
   hubs, communications must still pass through the old facilities to reach the
   appropriate specialist. As a result, the communication addresses of these closing
   facilities still “virtually” exist. However, HOST computers at FAA en route
   centers were not accepting information from facilities listed as closed.

In addition, some of the HOST computers were not set up to accept flight plans from
facilities that were not within their geographic area. When Lockheed Martin was
sending flight plans to these en route centers from adjacent facilities, the HOST


                                                                                        8
computer was not accepting flight plans because it did not recognize the address of
the flight service station that was sending the flight plan. Lockheed Martin and FAA
addressed these issues with a series of software drops at the Agency’s en route
centers.

Communication Issues: Users are also having communication difficulties with
contract flight service stations. Pilot complaints include long wait times to speak with
a specialist, busy signals, and dropped calls. This has resulted in users abandoning
their calls to flight service stations. For example, during the week of May 6, nearly
30 percent of all calls handled by the FS-21 system were abandoned by users (see
figure 2).

                     Figure 2. Calls to Flight Service Stations




 Source: Lockheed Martin

Lockheed Martin has resolved some of these issues. For example, Lockheed Martin
instituted a call off-loading system last year that would direct a pilot’s call to a facility
in that flight area. Call off-loading allows pilot calls to be transferred to adjoining
flight service stations when the original servicing facility becomes too busy or does
not have adequate staffing on duty to handle a user’s request. This reduces the wait
time for services, such as pilot briefings, and equalizes work among the flight service
stations.

Call off-loading was originally utilized by FAA in southern California and the eastern
United States in cases where a facility received an inordinate number of requests at
the same time. Lockheed Martin initially expanded call off-loading into a nationwide
program. However, in some cases, we found multiple facilities that had to adjust their
operations to cover off-loaded calls from short-staffed facilities, which created a
cascading effect across the country.



                                                                                           9
For example, one flight service facility supervisor noted that calls at the San Diego,
California, flight service station were off-loaded last summer to the Albuquerque,
New Mexico, flight service station due to staff shortages. However, this overloaded
the Albuquerque facility and required Albuquerque’s calls to be sent to the Fort
Worth, Texas, flight service station and Fort Worth’s calls to be transferred to
facilities in the East.

To address this issue, FS-21 now identifies the area of the caller and puts calls on hold
for 2 minutes at the local facility before transferring the call to a facility in an adjacent
flight plan area. If a specialist is not available there, the call is held for another
2 minutes and then transferred to the first available specialist, which could be
anywhere in the country. This increases the likelihood that a pilot’s call will be
answered by a specialist in or near the pilot’s local area and helps adjust workload
among the facilities.

Quality of Service: Users have complained about flight specialists’ inadequate
knowledge of basic flight specialist duties, FS-21, and local information. As a result
of these problems, user satisfaction regarding flight services has declined. The
Aircraft Owners and Pilots Association conducted several surveys of pilots regarding
services received from contract flight service stations. According to its most recent
survey (July 10, 2007), 24 percent of those surveyed noted that the quality of flight
services has improved, but 41 percent had seen no change. Thirty-six percent said the
quality had actually worsened over the previous 30 days. 4

The issue of local knowledge has proven particularly difficult to resolve and will need
to be carefully scrutinized during the next phases of operation. This is a challenge
because FS-21 was specifically designed as a national system under which specialists
can brief pilots for any airport in the country. However, this also means that
specialists do not necessarily have intricate knowledge of the area they are covering,
which some pilots expect them to know. To have that level of knowledge, specialists
must “certify” or become an expert on a specific flight area (i.e., the area’s terrain,
airports, navigational aids, flight restrictions, and weather, etc.).

Lockheed Martin is offering a bonus to all specialists who certify in at least two
service areas. The intent of this incentive is to have more specialists certified in more
areas, thus expanding local knowledge using the existing workforce. Whether this
will be a viable solution, however, is uncertain. The new 15 areas are much larger
than the previous 58 and will require greater effort on the part of specialists to become
certified. It will take time to determine if the incentives offered are a sufficient
enticement for specialists to certify on more than one area.


4
    We were unable to determine how this satisfaction rating compared to when FAA operated the flight service stations
    because FAA did not collect metrics on customer satisfaction.


                                                                                                                  10
As we stated previously, while FAA is no longer responsible for the day-to-day
operations of flight service stations, it is still ultimately responsible for the services
these facilities provide users of the National Airspace System. As such, FAA needs
effective controls in place to ensure that the quality of services is maintained and that
the estimated savings are achieved. In any future, similar undertakings, a key issue
will be to ensure that swift and decisive interventions are taken when outcomes—in
this instance, services—fail to meet requirements, even intermediately.

In response to our May 2007 recommendations, FAA recently made additional
adjustments to its controls in terms of oversight of the services provided by Lockheed
Martin. These included the following:

 • Implementing a customer service system that is independent of the contractor. We
   recommended that FAA develop a customer service mechanism independent of
   Lockheed Martin for users to address concerns regarding contracted flight
   services. Those actions were necessary so that FAA could independently
   determine if user needs were being adequately met under contract operations.

   FAA subsequently established a website link (independent of the contractor) for
   monitoring customer service. The system allows users to either call or e-mail
   FAA with their comments on the services provided by the contractor. Customer
   complaints are then sent to Lockheed Martin, which has 15 days to address the
   complaint and notify the Agency of the actions taken.

 • Instituting a staffing monitoring system over flight service stations. We
   recommended that FAA develop and implement management controls for
   monitoring contractor staffing.   While FAA initially disagreed with our
   recommendation, it has since concurred and is developing and implementing
   management controls, including metrics to determine if specialist staffing is
   sufficient.

Clearly, these are steps in the right direction; the key now will be ensuring that these
tools are effectively used and that resulting corrective action is taken as needed.

Key Issues Lockheed Martin and FAA Need To Address Going
Forward
While it appears that many of the transitional problems have been resolved, there are
at least three key watch items going forward. These are (1) achieving acceptable
levels of performance during the next several months before the next busy period for
general aviation, (2) achieving the anticipated savings, and (3) maintaining adequate
staffing levels and training of flight service specialists to meet users’ needs.




                                                                                       11
Achieving Acceptable Levels of Performance
A key issue going forward will be ensuring that Lockheed Martin is meeting APLs for
the 21 performance measures outlined in the contract. The performance measures
evaluate how well the contractor is performing on a series of metrics ranging from
customer service to operational efficiency. Some performance measures are
evaluated annually, some quarterly, and some are weighted more heavily than others.
The performance measures are critical because they measure how well the contractor
is performing in terms of the quality and safety of services provided.

During FY 2006, Lockheed Martin earned $6 million in bonuses for meeting
contractual performance measures; however, it did not achieve acceptable
performance for five of the measures, resulting in $8.9 million in financial penalties.
In addition, through the third quarter of FY 2007, Lockheed Martin has not met the
APLs for 13 of the 21 performance measures either for a quarter or for the year (see
exhibit). Of particular concern are the increasing number of operational errors and
deviations. The number of operational errors has doubled, from 3 in FY 2006 to
6 through August of FY 2007, and operational deviations have increased fourfold,
from 3 in FY 2006 to 14 through August of FY 2007.

The errors were the result of specialists either not briefing pilots on airport closures or
providing incorrect information. Most of the deviations were caused by specialists
not briefing pilots on the Washington Air Defense Identification Zone and temporary
Presidential flight restricted zones.

While improvements are clearly needed in the contractor’s current performance, it is
important to recognize that most of the problems occurred in the second and third
quarters of FY 2007, while the transition was ongoing. With the transition ending, we
would expect performance to improve.

However, this is a key watch item. If the contractor’s performance does not improve
over the next several months, it could indicate fundamental problems with how
Lockheed Martin is operating flight services. FAA must closely monitor the
contractor’s performance in terms of the APLs. FAA and Lockheed Martin also
intend to revisit the performance measures to ensure that they are realistic and provide
the best metrics for measuring performance.

Achieving Anticipated Savings
Another watch item is ensuring that the anticipated cost savings from the outsourcing
are realized. FAA’s anticipated savings are based on the difference between its
estimated costs of operating the flight service stations versus the cost of outsourcing
the services. These savings are expected to be achieved through a series of changes,
developed by Lockheed Martin, which will reorganize flight service stations
operations and modernize facilities and equipment.


                                                                                        12
FAA originally estimated that it would save $2.2 billion from outsourcing its flight
service activities over the 10-year life of the contract. However, FAA has also
reported that savings over the 10-year life of the contract would be $1.7 billion.
According to the Director of the Flight Services Program Office, the difference
between the two estimates is that FAA’s original cost savings estimate included
approximately $500 million in cost avoidances. Those cost avoidances were
associated with not hiring additional flight specialists during the A-76 competition in
2003 in anticipation of consolidating facilities, regardless of whether services would
be operated by FAA or a contractor.

We came to the same conclusion in our 2001 report on flight service stations. In that
report, we recommended that FAA consolidate its 61 flight service stations (the
number at the time of our review) into 25 locations while continuing to operate them.
We also estimated that FAA would likewise save approximately $500 million through
attrition and reductions in overhead and acquisition costs as a result of consolidation.
In its response to our recommendation, FAA went one step further by proposing the
A-76 study.

We believe that the $1.7 billion cost savings estimate is a more accurate
representation of the actual savings of the contract. The decision not to replace
departing specialists was made before the contract with Lockheed Martin, and the
associated savings would have been achieved even if FAA continued to operate the
flight service stations instead of outsourcing the services. Accordingly, we believe
that FAA needs to clarify its savings estimates.

FAA must ensure that savings estimates are met each year because most of the
anticipated savings are expected to be achieved in the later years of the contract. One
important tool that assists FAA in monitoring the actual savings to the estimates is a
variance report. This tool allows FAA to identify cost overruns, determine the
reasons for the overruns, and allow for adjustments to ensure that savings are realized.

According to the Agency’s first-year variance report, FAA spent approximately
$75 million less than it anticipated spending during the first year of the outsourcing.
Based on the cost savings estimate, FAA anticipated spending more on flight services
during the transition phase of the outsourcing (the first 2 years of the contract) versus
when it operated the facilities. However, the report noted that due to delays in
implementing FS-21, some communications, testing, and evaluation costs were
pushed out until FY 2007. As a result, potential second-year savings could be less
than anticipated. FAA is re-forecasting the planned savings based on its performance
to date and updated assumptions.

In addition, FAA may face a further reduction in savings over the life of the contract
due to two issues. First, Lockheed Martin is requesting an equitable adjustment to the
contract. Most of the adjustment, $102 million, is based on the contractor’s claim that


                                                                                      13
it was not provided with the correct labor rates when it submitted its bid. Lockheed
Martin is claiming that the actual wage rates for flight service specialists are
significantly higher than what FAA instructed bidders to assume and that FAA knew,
or should have known, that the rates were higher than what the company proposed. If
the adjustments are approved, it will reduce the potential cost savings to the Agency.
This issue is still being negotiated between the two parties.

Second, Lockheed Martin requested last year that the Department of Labor (DOL)
reconsider the wage rates for flight service specialists. It stated that the current
classification neither described all of the work that specialists perform nor recognized
the differences in skill levels among specialists. On September 29, 2006, DOL issued
a new three-tier rate scale for flight service specialists, which could result in
significantly higher wages for newly hired flight specialists.

FAA subsequently appealed this decision, but DOL denied the appeal on
May 21, 2007. The Agency expects Lockheed Martin to submit another Request for
Equitable Adjustment regarding this issue.

Maintaining Adequate Staffing and Training for the Flight Services Workforce
Finally, FAA must ensure that the contractor adequately staffs flight service stations
and that specialists are properly trained to ensure that users’ needs are met. Lockheed
Martin has a strategy for staffing its facilities. It involves utilizing a management
system, known as e-Workforce, which tracks call volume and traffic trends for flight
service stations. The contractor intends to use this information to determine if
specialist staffing levels are sufficient and ensure that service areas are appropriately
staffed to meet demand.

However, Lockheed Martin has only recently starting collecting data and does not
expect to start testing the system until next spring. In the meantime, we believe that
that FAA needs to monitor specialist staffing levels to ensure that users receive the
services they expect from flight service stations, including local knowledge.

In May, we recommended that FAA develop and implement management controls for
monitoring contractor staffing.    While FAA initially disagreed with our
recommendation, it has since concurred and is developing and implementing
management controls; these include metrics to determine if specialist staffing is
sufficient.

On September 7, 2007, the FAA contracting officer sent Lockheed Martin a letter
expressing concern with the operational staffing and organizational alignment for
operations at flight service stations. According to the letter,

       In [the contract], Lockheed Martin states that 1,400 operational personnel are
       required at the end of the Transition. As of September 1, 2007, however,


                                                                                      14
      operational staffing is below 1,000, with 842 specialists. While Lockheed
      Martin has taken some steps to address staffing, including hiring [part time]
      employees and extensive use of overtime, the FAA is concerned with
      operational staffing levels to meet current and forecasted demand for services.

On September 17, 2007, Lockheed Martin and officials from FAA’s Flight Services
Program Office met to discuss staffing. Based on those discussions, FAA requested
that Lockheed Martin provide “a corrective action plan addressing the staffing
problem, milestones for proposed solutions, follow-up actions that will be taken to
validate that the corrective actions were successful, and proposed management
controls to ensure a thorough and effective staffing plan is executed.”

FAA evaluators have also expressed concerns regarding the contractor’s specialist
training program. For example, an evaluation of the Miami flight service station
noted that, in some cases, recently certified specialists did not provide weather
advisory information or local NOTAM information, incorrectly identified the three-
letter location identifiers to pilots, and did not understand certain flight plan
notification messages. In light of these concerns, Lockheed Martin has made some
changes to its training program. It recently began conducting 1-day, “refresher”
training classes for all specialists, which include reviewing flight service processes
and procedures. However, the contractor has made only minor adjustments to other
areas of its training program. For example, Lockheed Martin originally provided
5 days of hands-on FS-21 training, with an additional 1- to 1 and a half-day of on-the-
job training with an instructor.

While the contractor subsequently added another half-day refresher class, specialists
basically learn how to use FS-21 as they work live traffic. FAA needs to continue
carefully monitoring Lockheed Martin’s training program to ensure that specialists are
properly trained on flight procedures and FS-21.

In closing, while FAA and Lockheed Martin are finishing the consolidation and
working to resolve outstanding problems, it remains unclear if further adjustments
need to be made. Traffic levels usually decrease after the summer air travel season,
providing FAA and the contractor with the time to make necessary adjustments.
Also, FAA officials are looking into ways to use the current contractual provisions to
improve services. If similar service problems occur next spring and summer,
however, FAA may have to institute changes in the way that contract flight service
stations are operated. This could include substantial modifications to the contract and
result in significant reductions to the anticipated savings.

That concludes my statement, Mr. Chairman. I would be pleased to answer any
questions that you or other Members of the subcommittee might have.




                                                                                    15
           EXHIBIT. LOCKHEED MARTIN’S PERFORMANCE ON THE
           CONTRACTUAL PERFORMANCE MEASURES FOR FY 2007
           (QUARTERS 1-3)
 ID Performance Measures                              Acceptable Did Lockheed                      Quarter           Quarterly
                                                     Performance Martin Pass or                    Failed (if        or Annual
                                                        Level        Fail?                        Applicable)        Evaluation
 1      AFSS Customer Satisfaction Rating                   84%           Neither* (See Note)            n/a            Annually
 2      Conformity Index Score                              85%                   Fail                   2nd            Annually
 2a     Services Conformity Index                           80%                   Fail                   3rd            Quarterly
 3      Employee Evaluation Index Score                     90%                  Pass                    n/a            Annually
 4      Number of Operational Errors                  Not to exceed 2             Fail                   2nd            Annually
                                                         per year
 5      Number of Operational Deviations              Not to exceed 6             Fail                   2nd            Annually
                                                         per year
 6      Number of Validated Customer                   Less than or              Pass                    n/a            Quarterly
        Complaints                                     equal to 1%
 7      Percentage of Calls per Day Answered                80%                   Fail                   3rd            Quarterly
        Within 20 Seconds
 8      Percentage of Dropped Calls per Hour           Less than or               Fail                   3rd            Quarterly
        Over 20 Seconds Wait                           equal to 7%
 9      Percentage of Radio Contacts                      80%                    Pass                    n/a            Quarterly
        Acknowledged Within 5 Seconds
 10     Percentage of Radio Contacts Service                85%                  Pass                    n/a            Quarterly
        Initiated Within 15 Seconds
 11     Percentage of Error-Free Flight Plans               95%                   Fail               1st, 2nd, 3rd      Quarterly
        Filed
 12     Percentage of Domestic Flight Plans                 95%                  Pass                    n/a            Quarterly
        Filed Within 3 Minutes
 13     Percentage of International Flight Plans            90%                   Fail                   1st            Quarterly
        Filed Within 5 Minutes
 14     Percentage of Pilot Reports Processed               90%                                          3rd            Quarterly
        Within 120 Seconds                                                        Fail
 15     Percentage of Error-Free Pilot Reports              90%                   Fail                   3rd            Quarterly
        Transmitted
 16     Emergency Services Evaluation Index                 95%                   Fail                   1st            Annually
        Score
 17     Percentage of Overdue Aircraft Located              94%                  Pass                    n/a            Quarterly
        Prior to Issuance of QALQ
 18     Percentage of Domestic Notice to                    90%                  Pass                    n/a            Quarterly
        Airmen (NOTAMS) Accepted
 19     Availability of Services                     Per NAS-SR-100               Fail                   3rd            Annually
 20     Percentage of Calls per Day Blocked           Less than or                Fail                   3rd            Quarterly
                                                       equal to 5%
* Note: Although customer satisfaction is one of the performance measures included in the contract, the survey that is used to develop
  the document is still in progress. Therefore, Lockheed Martin is not yet being evaluated on this performance measure.



           Exhibit. Lockheed Martin’s Performance on the Contractual                                                    16
           Performance Measures for FY 2007 (Quarters 1-3)
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added here
to accommodate assistive technology.
    Testimony Before the Committee on Transportation and Infrastructure,
      Subcommittee on Aviation, United States House of Representatives

  The Conversion of Flight Service Stations From FAA to Contract Operations

                           508 Compliant Presentation



Figure 1. Fifteen Realigned Flight Service Areas

The 15 realigned flight service areas mapped by Lockheed Martin are as follows.

 1. Seattle (SEA)

 2. Oakland (OAK)

 3. Prescott (PRC)

 4. Denver (DEN)

 5. Albuquerque (ABQ)

 6. Princeton (PMN)

 7. Columbia (COU)

 8. Fort Worth (FTW)

 9. Great Lakes (GL)

 10. Nashville (BNA)

 11. Northeast (NE)

 12. Washington, DC (DCA)

 13. Southeast (SE)

 14. Miami (MIA)

 15. Honolulu (HNL)

 16. San Juan (SJU)-Note: San Juan will be consolidated into Miami, leaving a total
     of 15.
 Source: Lockheed Martin
   Figure 2. Calls to Flight Service Stations: Total Calls Versus Calls Handled
   per Week

Users are also having communication difficulties with contract flight service stations.
Pilot complaints include long wait times to speak with a specialist, busy signals, and
dropped calls. This has resulted in users abandoning their calls to flight service
stations. For example, during the week of May 6, nearly 30 percent of all calls
handled by the FS-21 system were abandoned by users (see figure 2 data below).

 • During the week of April 1, 2007, there were 442 calls handled, 502 calls offered,
   and 60 calls abandoned. Rate of abandoned calls was 11.9 percent.

 • During the week of April 8, 2007, there were 4,875 calls handled, 5,268 calls
   offered, and 393 calls abandoned. Rate of abandoned calls was 7.5 percent.

 • During the week of April 15, 2007, there were 6,338 calls handled, 6,805 calls
   offered, and 467 calls abandoned. Rate of abandoned calls was 6.9 percent.

 • During the week of April 22, 2007, there were 14,788 calls handled, 17,296 calls
   offered, and 2,508 calls abandoned. Rate of abandoned calls was 14.5 percent.

 • During the week of April 29, 2007, there were 22,824 calls handled, 28,209 calls
   offered, and 5,385 calls abandoned. Rate of abandoned calls was 19.1 percent.

 • During the week of May 6, 2007, there were 27,526 calls handled, 39,057 calls
   offered, and 11,531 calls abandoned. Rate of abandoned calls was 29.5 percent.

 • During the week of May 13, 2007, there were 31,313 calls handled, 40,992 calls
   offered, and 9,679 calls abandoned. Rate of abandoned calls was 23.6 percent.

 • During the week of May 20, 2007, there were 42,346 calls handled, 51,606 calls
   offered, and 9,260 calls abandoned. Rate of abandoned calls was 17.9 percent.

 • During the week of May 27, 2007, there were 42,959 calls handled, 51,947 calls
   offered, and 8,988 calls abandoned. Rate of abandoned calls was 17.3 percent.

 • During the week of June 3, 2007, there were 47,770 calls handled, 52,365 calls
   offered, and 4,595 calls abandoned. Rate of abandoned calls was 8.8 percent.

Source: Lockheed Martin
         Exhibit. Lockheed Martin’s Performance on the Contractual Performance
         Measures
Note on Performance Measure 1 (AFSS Customer Satisfaction Rating): Although customer satisfaction is one of the performance
measures included in the contract, the survey that is used to develop the document is still in progress. Therefore, Lockheed Martin
is not yet being evaluated on this performance measure.

Performance Measure 1. AFSS                     Acceptable             Did Lockheed             Quarter Failed:    Performance
Customer Satisfaction Rating                    Performance            Martin Pass or           not applicable     measure 1 is
                                                Level: 84%             Fail? Neither                               annually
                                                                       (refer to note)                             evaluated
Performance Measure 2. Conformity               Acceptable             Did Lockheed             Quarter Failed:    Performance
Index Score                                     Performance            Martin Pass or                2nd           measure 2 is
                                                Level: 85%             Fail? Fail                                  annually
                                                                                                                   evaluated
Performance Measure 2a. Services                Acceptable             Did Lockheed             Quarter Failed:    Performance
Conformity Index                                Performance            Martin Pass or                 3rd          measure 2a is
                                                Level: 80%             Fail? Fail                                  evaluated
                                                                                                                   quarterly
Performance Measure 3. Employee                 Acceptable             Did Lockheed             Quarter Failed:    Performance
Evaluation Index Score                          Performance            Martin Pass or           not applicable     measure 3 is
                                                Level: 90%             Fail? Pass                                  annually
                                                                                                                   evaluated
Performance Measure 4. Number of                Acceptable             Did Lockheed             Quarter Failed:    Performance
Operational Errors                              Performance            Martin Pass or                2nd           measure 4 is
                                                Level: Not to          Fail? Fail                                  annually
                                                exceed 2 per year                                                  evaluated
Performance Measure 5. Number of                Acceptable             Did Lockheed             Quarter Failed:    Performance
Operational Deviations                          Performance            Martin Pass or                2nd           measure 5 is
                                                Level: Not to          Fail? Fail                                  annually
                                                exceed 6 per year                                                  evaluated
Performance Measure 6. Number of                Acceptable             Did Lockheed             Quarter Failed:    Performance
Validated Customer Complaints                   Performance            Martin Pass or           not applicable     measure 6 is
                                                Level: Less than       Fail? Pass                                  evaluated
                                                or equal to 1%                                                     quarterly
Performance Measure 7. Percentage of            Acceptable             Did Lockheed             Quarter Failed:    Performance
Calls per Day Answered Within 20                Performance            Martin Pass or                 3rd          measure 7 is
Seconds                                         Level: 80%             Fail? Fail                                  evaluated
                                                                                                                   quarterly
Performance Measure 8. Percentage of            Acceptable             Did Lockheed             Quarter Failed:    Performance
Dropped Calls per Hour Over 20                  Performance            Martin Pass or                 3rd          measure 8 is
Seconds Wait                                    Level: Less than       Fail? Fail                                  evaluated
                                                or equal to 7%                                                     quarterly
Performance Measure 9. Percentage of            Acceptable             Did Lockheed             Quarter Failed:    Performance
Radio Contacts Acknowledged Within 5            Performance            Martin Pass or           not applicable     measure 9 is
Seconds                                         Level: 80%             Fail? Pass                                  evaluated
                                                                                                                   quarterly
Performance Measure 10. Percentage of       Acceptable         Did Lockheed     Quarter Failed:   Performance
Radio Contacts Service Initiated Within     Performance        Martin Pass or   not applicable    measure 10 is
15 Seconds                                  Level: 85%         Fail? Pass                         evaluated
                                                                                                  quarterly
Performance Measure 11. Percentage of       Acceptable         Did Lockheed     Quarter Failed:   Performance
Error-Free Flight Plans Filed               Performance        Martin Pass or     1st, 2nd, 3rd   measure 11 is
                                            Level: 95%         Fail? Fail                         evaluated
                                                                                                  quarterly
Performance Measure 12. Percentage of       Acceptable         Did Lockheed     Quarter Failed:   Performance
Domestic Flight Plans Filed Within 3        Performance        Martin Pass or   not applicable    measure 12 is
Minutes                                     Level: 95%         Fail? Pass                         evaluated
                                                                                                  quarterly
Performance Measure 13. Percentage of       Acceptable         Did Lockheed     Quarter Failed:   Performance
International Flight Plans Filed Within 5   Performance        Martin Pass or         1st         measure 13 is
Minutes                                     Level: 90%         Fail? Fail                         evaluated
                                                                                                  quarterly
Performance Measure 14. Percentage of       Acceptable         Did Lockheed     Quarter Failed:   Performance
Pilot Reports Processed Within 120          Performance        Martin Pass or         3rd         measure 14 is
Seconds                                     Level: 90%         Fail? Fail                         evaluated
                                                                                                  quarterly
Performance Measure 15. Percentage of       Acceptable         Did Lockheed     Quarter Failed:   Performance
Error-Free Pilot Reports Transmitted        Performance        Martin Pass or         3rd         measure 15 is
                                            Level: 90%         Fail? Fail                         evaluated
                                                                                                  quarterly
Performance Measure 16. Emergency           Acceptable         Did Lockheed     Quarter Failed:   Performance
Services Evaluation Index Score             Performance        Martin Pass or         1st         measure 16 is
                                            Level: 95%         Fail? Fail                         annually
                                                                                                  evaluated
Performance Measure 17. Percentage of       Acceptable         Did Lockheed     Quarter Failed:   Performance
Overdue Aircraft Located Prior to           Performance        Martin Pass or   not applicable    measure 17 is
Issuance of QALQ                            Level: 94%         Fail? Pass                         evaluated
                                                                                                  quarterly
Performance Measure 18. Percentage of       Acceptable         Did Lockheed     Quarter Failed:   Performance
Domestic Notice to Airmen (NOTAMS)          Performance        Martin Pass or   not applicable    measure 18 is
Accepted                                    Level: 90%         Fail? Pass                         evaluated
                                                                                                  quarterly
Performance Measure 19. Availability of     Acceptable         Did Lockheed     Quarter Failed:   Performance
Services                                    Performance        Martin Pass or         3rd         measure 19 is
                                            Level: Per NAS-    Fail? Fail                         annually
                                            SR-100                                                evaluated
Performance Measure 20. Percentage of       Acceptable         Did Lockheed     Quarter Failed:   Performance
Calls per Day Blocked                       Performance        Martin Pass or        3rd          measure 20 is
                                            Level: Less than   Fail? Fail                         evaluated
                                            or equal to 5%                                        quarterly
